APPENDIX 1

Case 3:06-cr-00034-DCB-LRA Document 10 Filed 07/28/06 Page 1 of 6

Case 3:06-cr-00034-DCB-LRA Document 10 Filed 07/28/06 Page 2 of 6

Case 3:06-cr-00034-DCB-LRA Document 10 Filed 07/28/06 Page 3 of 6

Case 3:06-cr-00034-DCB-LRA Document 10 Filed 07/28/06 Page 4 of 6

Case 3:06-cr-00034-DCB-LRA Document 10 Filed 07/28/06 Page 5 of 6

Case 3:06-cr-00034-DCB-LRA Document 10 Filed 07/28/06 Page 6 of 6

APPENDIX 2

Case 3:06-cr-00034-DCB-LRA Document 68 Filed 04/25/17 Page 1 of 7

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
NORTHERN DIVISION
UNITED STATES OF AMERICA
VS.

CRIMINAL NO. 3:06-cr-34-WHB-ALL
CIVIL ACTION NO. 3:16-cv-507-WHB-ALL

ANDERSON ALEXANDER
OPINION AND ORDER
This cause is before the Court on Defendant’s Motion Under 28
U.S.C. § 2255 to Vacate, Set Aside or Correct Sentence by a Person
in Federal Custody (“Motion to Vacate”).1

Having considered the

pleadings, the record in the underlying criminal case, as well as
supporting and opposing authorities, the Court finds the Motion is
not well taken and should be denied.

I.

Factual Background and Procedural History

Anderson Alexander (“Alexander”) pleaded guilty to being a
felon in possession of a firearm in violation of 18 U.S.C. §
922(g)(1). Prior to sentencing, a Presentence Investigation Report
(“PSI”) was prepared to determine the applicable sentencing range
under

the

United

States

Sentencing

Guidelines

(“U.S.S.G.”).

Although Alexander’s initial Adjusted Offense Level was found to be
24, he was deemed to be an armed career criminal that required that
1

The Fifth Circuit authorized the filing of this
successive Motion to Vacate. See In re Anderson Alexander, No.
15-60352, slip Op. (5th Cir. Aug. 30, 2016).

Case 3:06-cr-00034-DCB-LRA Document 68 Filed 04/25/17 Page 2 of 7

his sentence be calculated from an Adjusted Offense Level of 33
pursuant to U.S.S.G. § 4B1.4(b)(3)(B). The prior felony convictions
used to support the armed career criminal designation included a
state court conviction for aggravated assault, and two state court
drug convictions, one for delivery of marijuana, and the other for
possession of cocaine with the intent to distribute. Following a
three-level reduction for acceptance of responsibility, Alexander’s
Total Offense Level was 30, which, when considered in conjunction
with his Criminal History Level of IV, resulted in a Sentencing
Guideline Range of 135 to 168 months.

Because of his three prior

convictions, however, Alexander was subject to a statutory 15-year
term

of

imprisonment

pursuant

to

18

U.S.C.

§

924(e),

which

provides, in relevant part, that a person who violates Section
922(g)(1)

and

...imprisoned

who
not

has

three

less

than

previous
fifteen

convictions
years.”

“shall

Alexander

be
was

sentenced to a 180-month term of imprisonment in July of 2006.
Relying on Johnson v. United States, 576 U.S. ---, 135 S.Ct.
2552 (2015), Alexander filed the subject Motion to Vacate.

In his

Motion, Anderson argues that under Johnson, his aggravated assault
conviction should not have been considered for the purposes of
either sentencing him as a career offender under 18 U.S.C. §
924(e), or for the purpose of applying the enhancements under
U.S.S.G. § 4B1.4 when calculating his sentence.

In response, the

Government argues that Alexander’s Motion to Vacate should be

2

Case 3:06-cr-00034-DCB-LRA Document 68 Filed 04/25/17 Page 3 of 7

dismissed on the grounds that it is either barred by the applicable
statute of limitations, or that his aggravated assault conviction
was properly considered at sentencing.

The Court now considers

Alexander’s Motion to Vacate.

II.

Discussion

In Johnson v. United States, 576 U.S. ---, 135 S.Ct. 2552
(2015), the United States Supreme Court considered a due process
challenge to the Armed Career Criminal Act (“ACCA”), codified at 18
U.S.C. § 924(e).

This statute provides, in relevant part:

(1) In the case of a person who violates section 922(g)
of this title and has three previous convictions by any
court ... for a violent felony or a serious drug offense,
or both, committed on occasions different from one
another, such person shall be fined under this title and
imprisoned not less than fifteen years ...
(2) As used in this subsection –
...
(B) the term “violent felony” means any crime punishable
by imprisonment for a term exceeding one year, or any act
of juvenile delinquency involving the use or carrying of
a firearm, knife, or destructive device that would be
punishable by imprisonment for such term if committed by
an adult, that –
(i) has as an element the use, attempted use, or
threatened use of physical force against the person of
another; or
(ii) is burglary, arson, or extortion, involves use of
explosives, or otherwise involves conduct that presents
a serious potential risk of physical injury to another...
18 U.S.C. § 924(e).

The specific issue raised to the Court was

3

Case 3:06-cr-00034-DCB-LRA Document 68 Filed 04/25/17 Page 4 of 7

whether the residual clause in Section 924(e)(2)(B)(ii), which
reads “or otherwise involves conduct that presents a serious
potential

risk

of

physical

injury

to

another”

was

unconstitutionally vague. In deciding the issue, the Johnson Court
held that an “increased sentence under the residual clause of the
Armed Career Criminal Act violates the Constitution’s guarantee of
Johnson, 133 S. Ct. at 2563.

due process.”

The Court also held

that its decision did not “call into question application of the
[ACCA] to the four enumerated offenses, or the remainder of the
Act’s definition of a violent felony.”

Id.

In his Motion to Vacate, Alexander argues that following
Johnson, his state court aggravated assault conviction can no
longer be considered a “violent felony” under the residual clause
of Section 924(e)(2)(B)(ii) of the ACCA for the purposes of
enhancing

his

sentence.2

Alexander

further

argues

that

his

aggravated assault conviction cannot be considered a “violent
felony” under the elements provision of Section 924(e)(2)(B)(i) of
the ACCA, which defines the term “violent felony” to include
certain crimes that have “as an element the use, attempted use, or
threatened use of physical force against the person of another.”
Contrary

to

Alexander’s

argument,

courts

have

found

that

a

conviction for aggravated assault under Mississippi law is properly
2

Alexander does not challenge whether his prior state
court drug convictions were properly considered when his sentence
was imposed. See Mot. to Vacate [Docket No. 61], 4 (“The two
drug related crimes are not at issue.”).
4

Case 3:06-cr-00034-DCB-LRA Document 68 Filed 04/25/17 Page 5 of 7

considered a “violent felony” based on its elements.
In United States v. Beckworth, 2016 WL 4203510 (N.D. Miss.
Aug.

9,

2016),

for

example,

the

court

considered

whether

a

conviction of aggravated assault under Mississippi law was a
violent

felony

under

the

elements

provision

of

U.S.S.G.

§

4B1.2(a)(1), the language of which is identical to the elements
provision of Section 924(e)(2)(B)(i) of the ACCA.

The court began

its discussion by citing Johnson v. United States, 559 U.S. 133
(2010), in which the Supreme Court clarified that for a conviction
to qualify as a violent felony under the elements provision of the
ACCA, the criminal statute underlying that conviction “must have an
element of ‘physical force,’ that is, ‘violent force’ capable of
causing physical pain or injury to another person.”

Beckworth,

2016 WL 4203510, at *4 (quoting Johnson, 559 U.S. at 140).

After

considering Johnson, the Court held:
Aggravated assault is a crime of violence under
Mississippi law. See Davis v. State, 680 So. 2d 848, 851
(Miss. 1996)(noting also that federal sentencing
guidelines consider aggravated assault a crime of
violence). The Court has already noted that Mississippi’s
[aggravated assault] statute essentially mirrors that of
the Model Penal Code. It notes that under either
provision, a conviction of aggravated assault requires an
assault (carried out or threatened) with an intent to
cause a serious bodily injury.
See United States v.
Ocampo-Cruz, 561 F. App’x 361, 363 (5th Cir. 2014)(noting
Model Penal Code definition of aggravated assault
describes a necessary mental state greater than simple
recklessness or negligence); see also United States v.
Forrest, 611 F.3d 908, 911 (8th Cir. 2010)((noting “[a]
threat that creates a fear ‘of imminent serious bodily
injury’ is a threat of physical force.”). Mississippi’s
aggravated assault statute does not encompass behavior
5

Case 3:06-cr-00034-DCB-LRA Document 68 Filed 04/25/17 Page 6 of 7

outside of the ordinary meaning of the offense, and
therefore, it is sufficient to meet the elements clause.
Beckworth, 2016 WL 4203510, at *4.
Having considered the applicable law and statutes, the Court
finds

that

aggravated
“violent

regardless
assault

“violent

under

felony”

924(e)(2)(B)(ii)
felony”

of

under
of

the

under

whether

Alexander’s

Mississippi
the

residual

ACCA,
the

law

that

would

qualify

clause

conviction

elements

924(e)(2)(B)(i) of that statute.

conviction

of

for

as

Section

constitutes

provision

of

a

a

Section

As such, the Court finds the

decision of the Supreme Court in Johnson, which held that only the
residual clause of the ACCA was void as unconstitutionally vague,
is not applicable in this case.

Additionally, as Alexander’s

aggravated assault conviction satisfies the elements clause of the
ACCA, it was proper to consider this conviction when determining
whether he was a career offender under that statute.

Because

Alexander had three qualifying convictions for the purpose of
sentencing him as a career offender under Section 924(e), i.e. one
violent felony conviction stemming from the aggravated assault
conviction and two prior convictions for serious drug offenses, the
Court finds he has failed to show that it erred when sentencing him
to the minimum sentence imposed by that statute.

Accordingly, the

Court finds Alexander’s Motion to Vacate is not well taken and

6

Case 3:06-cr-00034-DCB-LRA Document 68 Filed 04/25/17 Page 7 of 7

should be denied.3

III.

Conclusion

For the foregoing reasons:
IT IS THEREFORE ORDERED that Defendant’s Motion to Vacate
Conviction and Sentence by a Person in Federal Custody Pursuant to
28 U.S.C. § 2255 [Docket No. 61] is hereby denied.

A Final

Judgment dismissing this case with prejudice shall be entered this
day.
IT IS FURTHER ORDERED that a Certificate of Appealability
should not issue.

Defendant has failed to make a substantial

showing of the denial of a constitutional right.
SO ORDERED this the 25th day of April, 2017.

s/ William H. Barbour, Jr.
UNITED STATES DISTRICT JUDGE

3

Because the statutory minimum sentence in this case (180months imprisonment) was greater than the proposed Sentencing
Guideline Range (135 to 168-months imprisonment), the Court finds
Alexander’s challenge to the manner in which his guideline range
was calculated, i.e. application of the armed career criminal
enhancement under U.S.S.G. § 4B1.4, is moot. Even if not moot,
the argument is foreclosed by the decision in Beckles v. United
States, --- U.S. ---, 137 S. Ct. 886 (2017), a case in which the
Supreme Court held that provisions of the Sentencing Guidelines
are not subject to due process vagueness challenges.
7

Case 3:06-cr-00034-DCB-LRA Document 69 Filed 04/25/17 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
NORTHERN DIVISION
UNITED STATES OF AMERICA
VS.

CRIMINAL NO. 3:06-cr-34-WHB-ALL
CIVIL ACTION NO. 3:16-cv-507-WHB-ALL

ANDERSON ALEXANDER
FINAL JUDGMENT
In accordance with Rule 58 of the Federal Rules of Civil
Procedure, and with the Opinion and Order that denied Defendant
Anderson Alexander’s Petition Under 28 U.S.C. § 2255 to Vacate, Set
Aside, or Correct Sentence by a Person in Federal Custody, this
case is hereby dismissed with prejudice.
SO ORDERED this the 25th day of April, 2017.

s/ William H. Barbour, Jr.
UNITED STATES DISTRICT JUDGE

APPENDIX 3

Case: 17-60360

Document: 00515380140

Page: 1

Date Filed: 04/13/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 17-60360
UNITED STATES OF AMERICA,

FILED
April 13, 2020
Lyle W. Cayce
Clerk

Plaintiff – Appellee,
v.
ANDERSON ALEXANDER,
Defendant – Appellant.
Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 3:16-CV-507
USDC No. 3:06-CR-34-1
Before ELROD, WILLETT, and OLDHAM, Circuit Judges.
PER CURIAM: *
In July 2006, Anderson Alexander pleaded guilty to possessing a firearm
as a felon. Based on three prior convictions—two for drug offenses and one for
aggravated assault—he received a sentencing enhancement under the Armed
Career Criminal Act (“ACCA”). Alexander says an intervening Supreme Court
decision means his sentence violated the Constitution. But we lack jurisdiction
to reach the merits of his appeal. So we dismiss.
Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Case: 17-60360

Document: 00515380140

Page: 2

Date Filed: 04/13/2020

No. 17-60360
I.
On March 18, 2005, a police officer in Jackson, Mississippi, was driving
his patrol car down a local street. Alexander was driving toward the officer and
came close to causing a head-on collision. Then Alexander swerved—avoiding
a wreck and landing on the curb. The officer approached the car on the curb.
He spotted a 32-ounce can of Miller Lite between Alexander’s legs. A
subsequent search of the car uncovered a .22-caliber firearm as well as
suspected marijuana and crack cocaine under the driver’s seat. Jackson police
ran a criminal history check on Alexander. That search uncovered Alexander’s
prior felony convictions.
Alexander pleaded guilty to possessing a firearm as a felon. See 18 U.S.C.
§ 922(g). ACCA provides sentencing enhancements for “a person who violates
section 922(g) of this title and has three previous convictions . . . for a violent
felony or a serious drug offense” committed on separate occasions. Id.
§ 924(e)(1). Alexander’s criminal record at the time of sentencing included
three felony convictions, all in Mississippi: (1) a 1977 conviction for delivering
marijuana, (2) a 1980 conviction for aggravated assault, and (3) a 2000
conviction for possession of cocaine with intent to distribute. The judge
determined that Alexander’s first and third convictions qualified as serious
drug offenses and that the second conviction qualified as a violent felony.
Because those convictions triggered an ACCA-enhanced sentence, the judge
sentenced Alexander to a fifteen-year mandatory minimum sentence and a
three-year term of supervised release.
As part of his guilty plea, Alexander agreed to waive the right to contest
his conviction and sentence through a motion under 28 U.S.C. § 2255.
Nevertheless, in the years following his conviction, Alexander filed three
2

Case: 17-60360

Document: 00515380140

Page: 3

Date Filed: 04/13/2020

No. 17-60360
unsuccessful § 2255 motions. The district court denied and dismissed the first
two motions. This appeal arises from Alexander’s third. 1
In this § 2255 motion, Alexander argues that he should get the benefit of
the Supreme Court’s decision in Johnson v. United States, 135 S. Ct. 2551
(2015). Johnson held that ACCA’s residual clause is unconstitutionally vague. 2
See id. at 2562–63. Alexander says his conviction for aggravated assault could
constitute a “violent felony” under ACCA only by virtue of the (nowunconstitutional) residual clause. That means, Alexander says, his sentence is
unconstitutional.
The district court held otherwise. It found that Alexander’s conviction
for aggravated assault qualified as a violent felony under ACCA’s force clause,
and so Johnson was irrelevant to Alexander’s sentence. The court then denied
his motion and dismissed his case with prejudice. Alexander timely appealed,
and this court granted a certificate of appealability to consider whether the
district court erred in addressing the Johnson question.
The Government did not attempt to enforce Alexander’s waiver before filing a Rule
28(j) letter almost seven months after the parties completed briefing on the merits. As we
have said before, if the Government does not care enough about the waiver to enforce it, we
generally will ignore it too. See, e.g., United States v. Wiese, 896 F.3d 720, 722 n.1 (5th Cir.
2018); United States v. Story, 439 F.3d 226, 231 (5th Cir. 2006); cf. United States v. St. John,
625 F. App’x 661, 670 (5th Cir. 2015) (per curiam) (“[T]his court will not consider an issue
raised for the first time in a Rule 28(j) letter.”).
1

2

ACCA defines a violent felony as:

[A]ny crime punishable by imprisonment for a term exceeding one year . . . that
(i) has as an element the use, attempted use, or threatened use of physical force
against the person of another; or (ii) is burglary, arson, or extortion, involves
use of explosives, or otherwise involves conduct that presents a serious
potential risk of physical injury to another.
18 U.S.C. § 924(e)(2)(B). As relevant here, the first clause of this provision is known as the
“force clause” or the “elements clause” because it describes offenses that have the use of force
as an element. And the third clause of this provision (“or otherwise involves”) is known as
the “residual clause” because it served as a catchall for offenses that would not otherwise
qualify as violent felonies. See, e.g., Welch v. United States, 136 S. Ct. 1257, 1263 (2016).

3

Case: 17-60360

Document: 00515380140

Page: 4

Date Filed: 04/13/2020

No. 17-60360
II.
We review de novo questions of law in the denial of a § 2255 motion.
United States v. Clay, 921 F.3d 550, 554 (5th Cir. 2019). But “[i]f the district
court did not have jurisdiction to reach the merits, naturally, we cannot reach
the merits on appeal.” Wiese, 896 F.3d at 723.
A.
We begin and end with jurisdiction. As ever, “[a]n appellate federal court
must satisfy itself not only of its own jurisdiction, but also of that of the lower
courts in a cause under review.” Mitchell v. Maurer, 293 U.S. 237, 244 (1934);
see also Steel Co. v. Citizens for a Better Env’t, 523 U.S. 83, 94–95 (1998);
MidCap Media Fin., L.L.C. v. Pathway Data, Inc., 929 F.3d 310, 313 (5th Cir.
2019).
In 28 U.S.C. §§ 2244(b) and 2255(h), Congress set strict jurisdictional
requirements for second or successive § 2255 motions. See Clay, 921 F.3d at
554. First, a prisoner must persuade this Court to grant him permission to file
a successive motion. Id. Alexander did that.
Second, a “prisoner must actually prove at the district court level that
the relief he seeks relies either on a new, retroactive rule of constitutional law
or on new evidence.” Wiese, 896 F.3d at 723. To do so under the rule in Johnson,
a prisoner “must show that it was more likely than not that he was sentenced
under the residual clause.” Clay, 921 F.3d at 559. When “determining potential
reliance on the residual clause by the sentencing court,” a court can look to the
sentencing record and the background legal environment at the time of the
sentencing court’s decision, as well as the presentence investigation report
(PSR) and other relevant materials that were before that court. Wiese, 896 F.3d
at 725. “Where a prisoner fails to make the requisite showing before the district
court, the district court lacks jurisdiction . . . .” Clay, 921 F.3d at 554. In such
4

Case: 17-60360

Document: 00515380140

Page: 5

Date Filed: 04/13/2020

No. 17-60360
cases, “our jurisdiction extends not to the merits but merely for the purpose of
correcting the error of the lower court in entertaining the suit.” Id. (internal
quotation marks omitted).
B.
Alexander has failed to “show that it was more likely than not that he
was sentenced under the residual clause.” Id. at 559. That is so because
Mississippi’s aggravated-assault statute is divisible, and the district court
could have determined Alexander’s violation of the relevant portion of the state
law was a violent felony under the force clause.
First, the relevant statute of conviction is divisible. A statute is divisible
if it “list[s] elements in the alternative, and thereby define[s] multiple crimes.”
Mathis v. United States, 136 S. Ct. 2243, 2249 (2016); see also United States v.
Lerma, 877 F.3d 628, 633–34 (5th Cir. 2017). Mississippi’s relevant statute
said someone committed aggravated assault if he:
(a) attempt[ed] to cause serious bodily injury to another, or cause[d] such
injury purposely, knowingly or recklessly under circumstances
manifesting extreme indifference to the value of human life; or
(b) attempt[ed] to cause or purposely or knowingly cause[d] bodily injury
to another with a deadly weapon or other means likely to produce
death or serious bodily harm.
1974 Miss. Laws 557 (codified as amended at MISS. CODE ANN. § 97-3-7(2)).
The plain text thus contains disjunctive statutory alternatives describing
different crimes. Likewise, Mississippi courts long have recognized the
different crimes contained in the statute. See, e.g., Ward v. State, 479 So. 2d
713, 715 (Miss. 1985). Therefore, the statute is “divisible.”
Second, where a statute of conviction is divisible, “courts may look
beyond the statute to certain conclusive records made or used in adjudicating
guilt in order to determine which particular statutory alternative applies to
5

Case: 17-60360

Document: 00515380140

Page: 6

Date Filed: 04/13/2020

No. 17-60360
the defendant’s conviction.” United States v. Bonilla-Mungia, 422 F.3d 316,
320 (5th Cir. 2005) (internal quotation marks omitted). These conclusive
records include the “charging documents, plea agreements, transcripts of plea
colloquies, findings of fact and conclusions of law from a bench trial, and jury
instructions and verdict forms.” Johnson v. United States, 559 U.S. 133, 144
(2010). For example, we considered the indictment in United States v.
Montgomery, 402 F.3d 482, 486 (5th Cir. 2005). The question presented in that
case was whether a conviction for retaliation qualified for an ACCA
enhancement under the force clause. To answer that question, the court
examined “the indictment only to ‘pare down’ the statute—that is, to decide
under which branch of a disjunctive statute a defendant’s conviction falls.” Id.
Here, materials that were before the district court indicate Alexander
was convicted for using a deadly weapon to cause serious bodily injury. The
PSR said, “according to the Indictment, on October 1, 1979, the defendant
caused bodily injury to Robert E. Vance by use of a pistol.” The sentencing
judge confirmed with Alexander that he had read and reviewed his PSR, and
that Alexander affirmed the facts within it as “true and correct.” In so doing,
Alexander affirmed the PSR’s recounting of his aggravated assault indictment.
That is sufficient to “pare down” the relevant statute to its second subsection—
the one that involves the use of a “deadly weapon.” See MISS. CODE ANN. § 973-7(2)(b). And that, in turn, is sufficient to justify Alexander’s ACCA
enhancement under the force clause. See United States v. Torres-Diaz, 438 F.3d
529, 538 (5th Cir. 2006); United States v. Martinez, 962 F.2d 1161, 1168 (5th
Cir. 1992).
Third, the rest of the sentencing record is no help to Alexander. At the
sentencing hearing, the judge did not say anything to suggest he relied on
ACCA’s residual clause. Nor did the judge explain whether he was applying
6

Case: 17-60360

Document: 00515380140

Page: 7

Date Filed: 04/13/2020

No. 17-60360
the categorical approach or the modified categorical approach. That is
insufficient to carry Alexander’s burden to prove it is more likely than not that
the sentencing judge relied on the residual clause—and hence that Alexander’s
§ 2255 motion relies on Johnson.
We have said before that jurisdiction requires more than a “theoretical
possibility” that a district court relied on the residual clause. Wiese, 896 F.3d
at 726; see also, e.g., United States v. Hernandez, 779 F. App’x 195, 199 (5th
Cir. 2019) (per curiam). In this case, however, Alexander has produced only
theoretical possibilities.
DISMISSED.

7

Case: 17-60360

Document: 00515380159

Page: 1

Date Filed: 04/13/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_______________________
No. 17-60360
_______________________
D.C. Docket No. 3:16-CV-507

United States Court of Appeals
Fifth Circuit

FILED
April 13, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
ANDERSON ALEXANDER,
Defendant - Appellant
Appeal from the United States District Court for the
Southern District of Mississippi
Before ELROD, WILLETT, and OLDHAM, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on file.
It is ordered and adjudged that the appeal is dismissed.
IT IS FURTHER ORDERED that each party bear its own costs on
appeal.

APPENDIX 4

United States v. Alexander, 808 Fed.Appx. 234 (2020)
110k1025 Right of Defendant to Review
110k1026.10 Waiver or Loss of Right
110k1026.10(2) Plea of Guilty or Nolo
Contendere
110k1026.10(2.1) In general

808 Fed.Appx. 234
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial decisions
issued on or after Jan. 1, 2007. See also
U.S.Ct. of App. 5th Cir. Rules 28.7 and 47.5.
United States Court of Appeals, Fifth Circuit.

Court of Appeals would not consider whether
defendant's negotiated guilty plea waived his
right to file a motion to vacate sentence
challenging enhancement, under Armed Career
Criminal Act (ACCA), of his sentence for
possessing a firearm as a felon, where
government did not attempt to enforce
defendant's waiver until it filed a letter with
citation of supplemental authorities almost seven
months after completion of parties' appellate

UNITED STATES of America, Plaintiff – Appellee,
v.
Anderson ALEXANDER, Defendant – Appellant.
No.
17
60360
|
FILED April 13, 2020
Synopsis
Background: Defendant filed second or successive motion
to vacate sentence, relating to enhancement of his sentence
for possessing a firearm as a felon, based on Armed Career
Criminal Act (ACCA). The United States District Court
for the Southern District of Mississippi denied the motion.
Defendant appealed.

[Holding:] The Court of Appeals held that defendant did
not show that it was more likely than not that his sentence
enhancement was based on ACCA's unconstitutional residual
clause defining violent felony.
Appeal dismissed.
Procedural Posture(s): Appellate Review; Post-Conviction
Review.
West Headnotes (2)
[1]

Criminal Law
Contendere

Plea of Guilty or Nolo

110 Criminal Law
110XXIV Review
110XXIV(D) Right of Review

briefing on the merits.

18 U.S.C.A. § 924(e)

(2)(B); Fed. R. App. 28(j);
2255.

[2]

Criminal Law

28 U.S.C.A. §

Particular issues and cases

110 Criminal Law
110XXX Post-Conviction Relief
110XXX(C) Proceedings
110XXX(C)3 Hearing and Determination
110k1666 Effect of Determination
110k1668 Successive Post-Conviction
Proceedings
110k1668(3) Particular issues and cases

Defendant did not show that it was more likely
than not, as would be required for district
court's jurisdiction for second or successive
motion to vacate sentence relying on new
rule of constitutional law that the Supreme
Court had made retroactive to cases on
collateral review, that sentence enhancement
for possessing a firearm as a felon, based
in part on prior Mississippi felony conviction
for aggravated assault, occurred under residual
clause of definition of violent felony in Armed
Career Criminal Act (ACCA), which clause the
Supreme Court's
Johnson v. United States
decision found unconstitutionally vague under
due process principles; Mississippi's aggravated
assault statute was divisible, and under modified
categorical approach, indictment for aggravated
assault indicated that defendant had used a
pistol to cause serious bodily injury, so that
sentence enhancement could have been based

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Alexander, 808 Fed.Appx. 234 (2020)

on force clause of ACCA's definition of violent
felony. U.S. Const. Amend. 5;
924(e)(2)(B);
2255(h);

18 U.S.C.A. §

28 U.S.C.A. §§ 2244(b)(2)(A),
Miss. Code Ann. § 97-3-7(2).

West Codenotes
Recognized as Unconstitutional
18 U.S.C.A. § 924(e)(2)(B)(ii)
*235 Appeal from the United States District Court for the
Southern District of Mississippi, USDC No. 3:16-CV-507,
USDC No. 3:06-CR-34-1
Attorneys and Law Firms
Gaines H. Cleveland, Assistant U.S. Attorney, U.S. Attorney's
Office, Southern District of Mississippi, Gulfport, MS,
Gregory Layne Kennedy, Esq., Assistant U.S. Attorney,
David Harrison Fulcher, U.S. Attorney's Office Southern
District of Mississippi, Jackson, MS, for Plaintiff - Appellee
Michael L. Scott, Esq., Thomas Creagher Turner, Jr.,
Esq., Federal Public Defender's Office, Southern District of
Mississippi, Jackson, MS, for Defendant - Appellant
Before ELROD, WILLETT, and OLDHAM, Circuit Judges.
Opinion
PER CURIAM: *
*

Pursuant to 5th Cir. R. 47.5, the court has
determined that this opinion should not be
published and is not precedent except under the
limited circumstances set forth in 5th Cir. R. 47.5.4.

In July 2006, Anderson Alexander pleaded guilty to
possessing a firearm as a felon. Based on three prior
convictions—two for drug offenses and one for aggravated
assault—he received a sentencing enhancement under the
Armed Career Criminal Act (“ACCA”). Alexander says
an intervening Supreme Court decision means his sentence
violated the Constitution. But we lack jurisdiction to reach the
merits of his appeal. So we dismiss.

*236 I.
On March 18, 2005, a police officer in Jackson, Mississippi,
was driving his patrol car down a local street. Alexander was
driving toward the officer and came close to causing a headon collision. Then Alexander swerved—avoiding a wreck
and landing on the curb. The officer approached the car on
the curb. He spotted a 32-ounce can of Miller Lite between
Alexander’s legs. A subsequent search of the car uncovered
a .22-caliber firearm as well as suspected marijuana and
crack cocaine under the driver’s seat. Jackson police ran a
criminal history check on Alexander. That search uncovered
Alexander’s prior felony convictions.
Alexander pleaded guilty to possessing a firearm as a felon.
See

18 U.S.C. § 922(g). ACCA provides sentencing

enhancements for “a person who violates
section 922(g)
of this title and has three previous convictions ... for a violent
felony or a serious drug offense” committed on separate
occasions. Id. § 924(e)(1). Alexander’s criminal record at the
time of sentencing included three felony convictions, all in
Mississippi: (1) a 1977 conviction for delivering marijuana,
(2) a 1980 conviction for aggravated assault, and (3) a
2000 conviction for possession of cocaine with intent to
distribute. The judge determined that Alexander’s first and
third convictions qualified as serious drug offenses and that
the second conviction qualified as a violent felony. Because
those convictions triggered an ACCA-enhanced sentence,
the judge sentenced Alexander to a fifteen-year mandatory
minimum sentence and a three-year term of supervised
release.
[1] As part of his guilty plea, Alexander agreed to waive
the right to contest his conviction and sentence through a
motion under 28 U.S.C. § 2255. Nevertheless, in the years
following his conviction, Alexander filed three unsuccessful
§ 2255 motions. The district court denied and dismissed
the first two motions. This appeal arises from Alexander’s
third. 1
1

The Government did not attempt to enforce
Alexander’s waiver before filing a Rule 28(j) letter
almost seven months after the parties completed
briefing on the merits. As we have said before, if the
Government does not care enough about the waiver
to enforce it, we generally will ignore it too. See,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Alexander, 808 Fed.Appx. 234 (2020)

e.g.,

United States v. Wiese, 896 F.3d 720, 722

n.1 (5th Cir. 2018);
United States v. Story, 439
F.3d 226, 231 (5th Cir. 2006); cf. United States v.
St. John, 625 F. App'x 661, 670 (5th Cir. 2015) (per
curiam) (“[T]his court will not consider an issue
raised for the first time in a Rule 28(j) letter.”).
In this

§ 2255 motion, Alexander argues that he should

get the benefit of the Supreme Court’s decision in Johnson
v. United States, ––– U.S. ––––, 135 S. Ct. 2551, 192
L.Ed.2d 569 (2015).

II.
We review de novo questions of law in the denial of a

2255 motion. United States v. Clay, 921 F.3d 550, 554 (5th
Cir. 2019). But “[i]f the district court did not have jurisdiction
to reach the merits, naturally, we cannot reach the merits on
appeal.”

Wiese, 896 F.3d at 723.

Johnson held that ACCA’s residual

A.

2

clause is unconstitutionally vague. See
id. at 2562–63.
Alexander says his conviction for aggravated assault could
constitute a “violent felony” under ACCA only by virtue
of the (now-unconstitutional) residual clause. That means,
Alexander *237 says, his sentence is unconstitutional.
2

ACCA defines a violent felony as:
[A]ny crime punishable by imprisonment for a
term exceeding one year ... that (i) has as an
element the use, attempted use, or threatened use
of physical force against the person of another;
or (ii) is burglary, arson, or extortion, involves
use of explosives, or otherwise involves conduct
that presents a serious potential risk of physical
injury to another.

§

We begin and end with jurisdiction. As ever, “[a]n appellate
federal court must satisfy itself not only of its own
jurisdiction, but also of that of the lower courts in a cause
under review.”

Mitchell v. Maurer, 293 U.S. 237, 244,

55 S.Ct. 162, 79 L.Ed. 338 (1934); see also
Steel Co. v.
Citizens for a Better Env’t, 523 U.S. 83, 94–95, 118 S.Ct.
1003, 140 L.Ed.2d 210 (1998); MidCap Media Fin., L.L.C. v.
Pathway Data, Inc., 929 F.3d 310, 313 (5th Cir. 2019).
In
28 U.S.C. §§ 2244(b) and
2255(h), Congress set
strict jurisdictional requirements for second or successive
§ 2255 motions. See
Clay, 921 F.3d at 554. First, a
prisoner must persuade this Court to grant him permission to

18 U.S.C. § 924(e)(2)(B). As relevant here,
the first clause of this provision is known as the
“force clause” or the “elements clause” because
it describes offenses that have the use of force as
an element. And the third clause of this provision
(“or otherwise involves”) is known as the “residual
clause” because it served as a catchall for offenses
that would not otherwise qualify as violent felonies.

file a successive motion.

See, e.g., Welch v. United States, ––– U.S. ––––,
136 S. Ct. 1257, 1263, 194 L.Ed.2d 387 (2016).

he was sentenced under the residual clause.”
Clay, 921
F.3d at 559. When “determining potential reliance on the
residual clause by the sentencing court,” a court can look to
the sentencing record and the background legal environment
at the time of the sentencing court’s decision, as well as
the presentence investigation report (PSR) and other relevant

The district court held otherwise. It found that Alexander’s
conviction for aggravated assault qualified as a violent felony
under ACCA’s force clause, and so Johnson was irrelevant
to Alexander’s sentence. The court then denied his motion and
dismissed his case with prejudice. Alexander timely appealed,
and this court granted a certificate of appealability to consider
whether the district court erred in addressing the
question.

Johnson

Id. Alexander did that.

Second, a “prisoner must actually prove at the district court
level that the relief he seeks relies either on a new, retroactive
rule of constitutional law or on new evidence.”

Wiese,

896 F.3d at 723. To do so under the rule in
Johnson, a
prisoner “must show that it was more likely than not that

materials that were before that court.
Wiese, 896 F.3d at
725. “Where a prisoner fails to make the requisite showing
before the district court, the district court lacks jurisdiction....”
Clay, 921 F.3d at 554. In such cases, “our jurisdiction
extends not to the merits but merely for the purpose of

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Alexander, 808 Fed.Appx. 234 (2020)

correcting the error of the lower court in entertaining the suit.”
Id. (internal quotation marks omitted).

B.
[2] Alexander has failed to “show that it was more likely
than not that he was sentenced under the residual clause.”
Id. at 559. That is so because Mississippi’s aggravatedassault statute is divisible, and the district court could have
determined Alexander’s violation of the relevant portion of
the state law was a violent felony under the force clause.
First, the relevant statute of conviction is divisible. A statute
is divisible if it “list[s] elements in the alternative, and thereby
define[s] multiple crimes.”
Mathis v. United States, –––
U.S. ––––, 136 S. Ct. 2243, 2249, 195 L.Ed.2d 604 (2016); see
also United States v. Lerma, 877 F.3d 628, 633–34 (5th Cir.
2017). Mississippi’s relevant statute said someone committed
aggravated assault if he:
(a) attempt[ed] to cause serious bodily injury to another,
or cause[d] such *238 injury purposely, knowingly
or recklessly under circumstances manifesting extreme
indifference to the value of human life; or
(b) attempt[ed] to cause or purposely or knowingly
cause[d] bodily injury to another with a deadly weapon
or other means likely to produce death or serious bodily
harm.
1974 Miss. Laws 557 (codified as amended at
MISS.
CODE ANN. § 97-3-7(2)). The plain text thus contains
disjunctive statutory alternatives describing different crimes.
Likewise, Mississippi courts long have recognized the
different crimes contained in the statute. See, e.g., Ward v.
State, 479 So. 2d 713, 715 (Miss. 1985). Therefore, the statute
is “divisible.”

fact and conclusions of law from a bench trial, and jury
instructions and verdict forms.”
Johnson v. United States,
559 U.S. 133, 144, 130 S.Ct. 1265, 176 L.Ed.2d 1 (2010).
For example, we considered the indictment in United States v.
Montgomery, 402 F.3d 482, 486 (5th Cir. 2005). The question
presented in that case was whether a conviction for retaliation
qualified for an ACCA enhancement under the force clause.
To answer that question, the court examined “the indictment
only to ‘pare down’ the statute—that is, to decide under which
branch of a disjunctive statute a defendant’s conviction falls.”
Id.
Here, materials that were before the district court indicate
Alexander was convicted for using a deadly weapon to
cause serious bodily injury. The PSR said, “according to
the Indictment, on October 1, 1979, the defendant caused
bodily injury to Robert E. Vance by use of a pistol.” The
sentencing judge confirmed with Alexander that he had read
and reviewed his PSR, and that Alexander affirmed the
facts within it as “true and correct.” In so doing, Alexander
affirmed the PSR’s recounting of his aggravated assault
indictment. That is sufficient to “pare down” the relevant
statute to its second subsection—the one that involves the
use of a “deadly weapon.” See
MISS. CODE ANN.
§ 97-3-7(2)(b). And that, in turn, is sufficient to justify
Alexander’s ACCA enhancement under the force clause. See
United States v. Torres-Diaz, 438 F.3d 529, 538 (5th Cir.
2006); United States v. Martinez, 962 F.2d 1161, 1168 (5th
Cir. 1992).
Third, the rest of the sentencing record is no help to
Alexander. At the sentencing hearing, the judge did not say
anything to suggest he relied on ACCA’s residual clause.
Nor did the judge explain whether he was applying the
categorical approach or the modified categorical approach.
That is insufficient to carry Alexander’s burden to prove it
is more likely than not that the sentencing judge relied on
the residual clause—and hence that Alexander’s

§ 2255

Second, where a statute of conviction is divisible, “courts
may look beyond the statute to certain conclusive records
made or used in adjudicating guilt in order to determine which
particular statutory alternative applies to the defendant’s

motion relies on

conviction.”
United States v. Bonilla-Mungia, 422 F.3d
316, 320 (5th Cir. 2005) (internal quotation marks omitted).
These conclusive records include the “charging documents,
plea agreements, transcripts of plea colloquies, findings of

residual clause.
Wiese, 896 F.3d at 726; see also, e.g.,
United States v. Hernandez, 779 F. App'x 195, 199 (5th Cir.
2019) (per curiam). In this case, however, Alexander has
produced only theoretical possibilities.

Johnson.

We have said before that jurisdiction requires more than a
“theoretical possibility” that a district court relied on the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Alexander, 808 Fed.Appx. 234 (2020)

DISMISSED.

All Citations
808 Fed.Appx. 234

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

